ATTORNEY CERTIFICATION

I, Marian S.A. Tipp, hereby certify that on September 3, 2019,1 have SERVED Attorneys for
APPELLEE AS FOLLOWS:

SANDY G. ROBINSON
CABANISS, JOHNSTON, GARDNER, DUMAS & O'NEAL LLP
Post Office Box 2906
Mobile, Alabama 36652
JASON W. BOBO
CABANISS, JOHNSTON, GARDNER, DUMAS & O'NEAL LLP
2001 Park Place North Suite 700
Birmingham, AL 35203
MICHAEL E. TURNER
CABANISS, JOHNSTON, GARDNER, DUMAS & O'NEAL LLP
2001 Park Place North Suite 700
Birmingham, AL 35 c 203

Page 13 of 13

